No. 19-1039
In the

Supreme Court of the United States

PENNEAST PIPELINE COMPANY, LLC
PETITIONER,
V.

STATE OF NEW JERSEY, ET AL.
RESPONDENTS,
On Petition For Writ Of Certiorari
To The Third Circuit Court Of Appeals
BRIEF IN OPPOSITION

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29(5), I certify that on June 2,
2020, Respondents’ brief in opposition was served on the following
individuals, who consented to electronic service in accordance with This
Court’s April 15, 2020 General Order:
PAUL D. CLEMENT
Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioner

Edward Lloyd
Counsel of Record
Morningside Heights Legal Services, Inc.
435 West 116th Street
New York, NY, 10027
(973) 495-3774
elloyd@law.columbia.edu
Counsel for Respondent New Jersey Conservation Foundation

I declare under penalty of perjury that the forgoing is true and
correct.

Date: June 2, 2020
JEREMY M. FEIGENBAUM
Counsel of Record

